@OCKLE

Legal Briefs

Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No. 19-123

SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR AMICI CURIAE
PRESIDENT OF THE HOUSE OF DEPUTIES OF THE EPISCOPAL CHURCH; THE
RABBINICAL ASSEMBLY; UNITED SYNAGOGUE OF CONSERVATIVE JUDAISM;
CENTRAL CONFERENCE OF AMERICAN RABBIS; CENTRAL ATLANTIC, PENN
CENTRAL, PENN NORTHEAST, PENNSYLVANIA SOUTHEAST, AND PENN WEST
CONFERENCES OF THE UNITED CHURCH OF CHRIST; RECONSTRUCTING JUDAISM;
RECONSTRUCTIONIST RABBINICAL ASSOCIATION; UNION FOR REFORM JUDAISM;
UNITARIAN ~—UNIVERSALIST ASSOCIATION; COVENANT NETWORK OF
PRESBYTERIANS; FRIENDS FOR LGBTQ CONCERNS; MEN OF REFORM JUDAISM;
METHODIST FEDERATION FOR SOCIAL ACTION; MORE LIGHT PRESBYTERIANS;
MUSLIMS FOR PROGRESSIVE VALUES; RECONCILING MINISTRIES NETWORK;
WOMEN OF REFORM JUDAISM; AND INDIVIDUAL FAITH LEADERS IN SUPPORT OF
RESPONDENTS AND AFFIRMANCE in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 7967 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of August, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
f RENEE J. GOSS Ronse. 9 Yoon 7 Qudraw- Ke. Gh
My Comm. Exp. September 5, 2023 .

Notary Public

 

Affiant 39919
